Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   MEDICARE CONTRACTORS
     FOR JURISDICTION 15
   OVERPAID PROVIDERS FOR
  SELECTED OUTPATIENT DRUGS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                       March 2014
                                                      A-05-13-00013
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Medicare contractors for Jurisdiction 15 overpaid providers by $5.1 million for selected
  outpatient drugs over 3 years.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. Previous Office of Inspector General reviews of outpatient services have
found that Medicare contractors overpaid providers for selected outpatient drugs. This report is
part of a series of reports focusing on payments for selected outpatient drugs.

The objective of this review was to determine whether payments that Medicare contractors for
Jurisdiction 15 made to providers for selected outpatient drugs were correct.

BACKGROUND

Providers report the outpatient drugs administered to Medicare beneficiaries using standardized
codes called Healthcare Common Procedure Coding System (HCPCS) codes and report units of
service in multiples of the units shown in the HCPCS narrative description. Correct payments
depend on accurate reporting of the HCPCS codes and units of service for each claim line item
billed. CMS designed a series of automatic system edits that Medicare contractors use to review
the units billed by providers, identify errors in billed amounts, and ensure that billed units that
exceed the edit threshold for a likely dose are validated before the claim line items are paid. In
this audit, we did not review entire claims; rather, we reviewed specific line items within the
claims.

During our audit period (July 1, 2009, through June 30, 2012), National Government Services,
Inc. (NGS), began as the Medicare contractor for Jurisdiction 15 (Kentucky and Ohio). Effective
October 17, 2011, CGS Administrators, LLC (CGS), became the Medicare contractor for
Jurisdiction 15. The Medicare contractors paid providers $773.6 million for 1.7 million line
items for selected outpatient drugs. We reviewed 947 line items with total payments of $11.6
million that were at risk for overpayment.

Because CGS assumed responsibility for claims formerly paid by NGS for Jurisdiction 15, we
have addressed our findings and recommendations to CGS for review and comment.

WHAT WE FOUND

Payments that the Medicare contractors for Jurisdiction 15 made to providers for 632 of the
947 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $5,094,006 and an underpayment of $636 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers


Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                i
had refunded $660,203 of overpayments for another 15 line items. The remaining 300 line items
were correct.

For the 631 incorrect line items with overpayments of $5,094,006 that had not been refunded,
providers reported incorrect units of service, billed separately for an outpatient drug for which
payment was packaged with the primary service, did not provide supporting documentation,
reported a combination of incorrect units of service and incorrect HCPCS codes, and used
incorrect HCPCS codes. For the one incorrect line item with an underpayment, the provider
reported incorrect units of service resulting in an underpayment of $636. The provider submitted
an adjusted claim.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because there were insufficient edits in place to prevent or
detect overpayments.

WHAT WE RECOMMEND

We recommend that CGS:

    •   recover the $5,094,006 in identified overpayments,

    •   verify the payment of $636 in the identified underpayment, and

    •   use the results of this audit in its ongoing provider education activities.

CGS’s COMMENTS

In written comments on our draft report, CGS concurred with all of our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations.




Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicare Part B .................................................................................................1
                 Healthcare Common Procedure Coding System Codes.....................................2
                 Medicare Contractor Edits .................................................................................2
                 National Government Services and CGS Administrators ..................................3

           How We Conducted This Review..................................................................................3

FINDINGS .................................................................................................................................4

           Federal Requirements ....................................................................................................4

           Overpayments to Providers That Billed Incorrectly or Did Not Document
            That the Services Billed Had Been Performed ...........................................................5
                  Incorrect Number of Units of Service ................................................................5
                  Billed Separately for Packaged Services ...........................................................5
                  Lack of Supporting Documentation ...................................................................6
                  Combination of Incorrect Number of Units of Service and
                    Incorrect Healthcare Common Procedure Coding System Codes ..................6
                  Incorrect Healthcare Common Procedure Coding System Codes .....................6

           Underpayment to a Provider That Billed Incorrectly ....................................................7

           Causes of Incorrect Medicare Payments ........................................................................7

RECOMMENDATIONS ...........................................................................................................7

CGS’s COMMENTS .................................................................................................................7

APPENDIXES

           A: Related Office of Inspector General Reports: Jurisdiction 15 ................................8

           B: Audit Scope and Methodology.................................................................................9

           C: Federal Requirements Related to Medicare Contractor Payment and
                Provider Billing for Selected Outpatient Drugs ..................................................11

           D: CGS’s Comments...................................................................................................13


Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                                                           iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor 1) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. 2

Previous Office of Inspector General reports have found that Medicare contractors overpaid
providers by more than $122.4 million for outpatient drugs. We identified $4.6 million of these
overpayments in reviews of selected outpatient drugs at 39 providers and $24.2 million in
nationwide reviews of the drug Herceptin. We identified approximately $81.9 million of
payments for outpatient drugs in reviews of payments that exceeded provider charges by at least
$1,000 and identified approximately $11.7 million of payments for outpatient drugs in reviews of
payments at high risk for overpayments. 3 (See Appendix A for a list of reports related to
Jurisdiction 15.)

This report is part of a series of reports focusing on payments for selected outpatient drugs.

OBJECTIVE

Our objective was to determine whether payments that Medicare contractors for Jurisdiction 15
made to providers for selected outpatient drugs were correct.

BACKGROUND

Medicare Part B

Part B of Medicare provides supplementary medical insurance, including coverage for the cost of
outpatient drugs. CMS administers Part B and contracts with Medicare contractors to, among
other things, determine reimbursement amounts and pay claims, conduct reviews and audits, and
safeguard against fraud and abuse. Medicare contractors must establish and maintain efficient


1
  Currently, Medicare administrative contractors pay Medicare claims. For some jurisdictions, fiscal intermediaries
paid claims during some or all of our audit period. In this report, the term “Medicare contractor” means the fiscal
intermediary or Medicare administrative contractor, whichever is applicable.
2
 Biologicals are medicinal preparations made from living organisms and their products (for example, serums,
vaccines, antigens, and antitoxins); radiopharmaceuticals are radioactive drugs used for diagnostic or therapeutic
purposes.
3
  Although the selected provider and Herceptin audits included only outpatient drugs, the payments-greater-than-
charges audits, with overpayments totaling $106 million, and the excessive-claim-payments audits, with
overpayments totaling $44 million, included all types of outpatient services. Some of the reviews of payments that
exceeded provider charges covered amounts between $500 and $1,000. We considered high-risk payments as those
that exceeded $10,000 for claims under Part B and exceeded $50,000 for claims for outpatient services. We
estimated the total overpayment amount for selected outpatient drug services for these audits.

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                                1
and effective internal controls. 4 These controls, including those over automatic data processing
systems, are intended to prevent increased program costs caused by incorrect or delayed
payments. Medicare contractors use the Common Working File (CWF) and Fiscal Intermediary
Standard System (FISS) to validate providers’ claims for outpatient services before paying the
claims. Medicare contractors calculate the payment for each outpatient service using FISS’s
Hospital Outpatient Prospective Payment System (OPPS). These three systems can also detect
certain improper payments.

Healthcare Common Procedure Coding System Codes

Medicare contractors pay providers using established rates for each hospital outpatient unit of
service claimed, subject to any Part B deductible and coinsurance. Medicare guidance requires
providers to submit accurate claims for outpatient services. Each submitted claim may contain
multiple line items that detail most provided services. 5 Providers must use standardized codes,
called Healthcare Common Procedure Coding System (HCPCS) codes, for drugs administered
and report units of service in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the HCPCS code specifies 50 milligrams and 200 milligrams
are administered, units are shown as 4.

Medicare Contractor Edits

To reduce payment errors, CMS introduced a number of claims-review initiatives that identify
and address incorrect billing due to coverage or coding errors made by providers. One of these
review initiatives, established in January 2007, is the “Medically Unlikely Edits” prepayment
claims review program. Medically unlikely edits are developed and maintained by the CMS
National Correct Coding Initiative contractor. 6

Medically unlikely edits are automatic prepayment edits within the FISS that compare the billed
units with the maximum units of service for a given HCPCS code. The maximum units of
service are the maximum number of units that a provider would reasonably administer to a
patient for that service on a single date of service. A medically unlikely edit denies line items for
units of service that exceed the maximum units for the HCPCS code billed.




4
    CMS, Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, section 10.
5
  Some claim line items included on outpatient claims do not identify the specific services provided but just identify
the revenue code and billed charges. These line items are generally not paid because the services are bundled into
other services that are specifically identified.
6
  The contractor, Correct Coding Solutions, LLC, provides a revised medically unlikely edit table to CMS each
quarter. CMS then distributes the revised medically unlikely edit table with the revised national correct coding
initiative table to the Medicare contractors.

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                               2
Medically unlikely edits, which are updated each quarter, do not exist for all HCPCS codes.
Before implementing new medically unlikely edits, CMS offers national health care
organizations the opportunity to review and comment on the proposed edits. Medicare
contractors must include the medically unlikely edits in their payment systems. 7

National Government Services and CGS Administrators

During our audit period (July 1, 2009, through June 30, 2012), National Government Services,
Inc. (NGS), began as the Medicare contractor for Jurisdiction 15 (Kentucky and Ohio). CGS
Administrators, LLC (CGS), assumed full responsibility as the Medicare contractor for
Jurisdiction 15 effective October 17, 2011. Accordingly, we have addressed our findings and
recommendations to CGS for review and comment.

HOW WE CONDUCTED THIS REVIEW

During our audit period, the Medicare contractors for Jurisdiction 15 paid providers
$773.6 million for 1.7 million line items for selected outpatient drugs. We reviewed 947 line
items 8 with total payments of $11.6 million that were at risk for overpayment. These line items
were for outpatient drugs with payment status indicator code “G” or “K.” 9 We used computer
matching, data mining, and other analytical techniques to identify the line items potentially at
risk for noncompliance with Medicare billing requirements. We evaluated compliance with
selected billing requirements, but we did not use medical review to determine whether services
were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix B for the details of our scope and methodology.




7
 CMS makes the majority of medically unlikely edits publicly available on its Web site. However, CMS does not
publish all medically unlikely edit values, particularly for outpatient drugs, because of fraud and abuse concerns.
8
    In this audit, we did not review entire claims; rather, we reviewed specific line items within the claims.
9
  “G” and “K” identify drugs that are separately paid by Medicare. “G” identifies drugs and biologicals paid using
the OPPS that include a pass-through payment. (Pass-through payments are additional payments made for a short
time to cover the cost for certain innovative medical devices, drugs, and biologicals that exceed Medicare’s OPPS
payment amount.) “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals, brachytherapy sources of
radiation, blood, and blood products paid using the OPPS without a pass-through payment.

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                                3
                                                FINDINGS

Payments that the Medicare contractors for Jurisdiction 15 made to providers for 632 of the 947
line items for outpatient drugs we reviewed were not correct. These incorrect payments resulted
in overpayments of $5,094,006 and an underpayment of $636 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $660,203 of overpayments for another 15 line items. The remaining 300 line items
were correct.

For the 631 incorrect line items with overpayments of $5,094,006 that had not been refunded,
providers:

    •   reported incorrect units of
        service on 421 line items,
        resulting in overpayments of
        $4,361,915;

    •   billed separately for an
        outpatient drug for which
        payment was packaged with
        the primary service on 92 line
        items, resulting in
        overpayments of $344,649

    •   did not provide supporting
        documentation for 34 line
        items, resulting in
        overpayments of $195,753;

    •   reported a combination of incorrect units of service and incorrect HCPCS codes on
        81 line items, resulting in overpayments of $181,060; and

    •   used incorrect HCPCS codes on 3 line items, resulting in overpayments of $10,629.

For the one incorrect line item with an underpayment, the provider reported incorrect units of
service resulting in an underpayment of $636. The provider submitted an adjusted claim.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because neither the CWF nor the FISS had sufficient edits
in place to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

The Social Security Act (the Act) and CMS Pub. No. 100-04, Medicare Claims Processing
Manual (the Manual), provide overall requirements related to the billing and payment of hospital
outpatient services. They require that providers submit accurate and complete bills to Medicare


Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                4
for allowable and covered services and identify the number of units of service for each outpatient
drug administered to a Medicare beneficiary using the correct HCPCS code. 10

See Appendix C for details on the Federal requirements related to Medicare contractor payment
and provider billing for selected outpatient drugs.

OVERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY OR DID NOT
DOCUMENT THAT THE SERVICES BILLED HAD BEEN PERFORMED

Incorrect Number of Units of Service

Providers reported incorrect units of service on 421 line items, resulting in overpayments of
$4,361,915. The incorrect units of service involved 66 different outpatient drugs. The following
are examples:

       •   One provider administered 6 units of rituximab to a patient and billed for 60 units of
           service. On 21 separate occasions, this type of error occurred, and as a result, the
           Medicare contractors paid the provider $811,562 when they should have paid $67,863, an
           overpayment of $743,699.

       •   Another provider administered 1.1 micrograms of sincalide to a patient and billed for
           75 units of service (375 micrograms). Using the HCPCS description of sincalide
           (injection, sincalide, 5 micrograms), the correct number of units to bill for
           1.1 micrograms was 1. 11 On 33 separate occasions, this type of error occurred, and as a
           result, the Medicare contractors paid the provider $130,271 when they should have paid
           $1,730, an overpayment of $128,541.

In total, the Medicare contractors paid 86 providers $5,303,925 when they should have paid
$942,010, an overpayment of $4,361,915.

Billed Separately for Packaged Services

For selected outpatient drugs that have multiple HCPCS codes, providers billed Medicare on
92 line items using the HCPCS code that Medicare pays separately instead of the HCPCS code
that Medicare does not pay separately, resulting in overpayments of $344,649. These line items
involved three different packaged outpatient drugs.

Medicare pays for outpatient drugs that are considered primary procedures but does not pay
separately for outpatient drugs when their payment is packaged in the payment of a primary
procedure. Medicare has different HCPCS codes for similar drugs to distinguish which are paid
separately and which are not paid separately.




10
     These requirements are found in the Act, section 1833(e), and the Manual, chapter 17, section 90.2.A.
11
  If the drug dose used in the care of a patient is not a multiple of the dose specified in the HCPCS narrative
description, the provider rounds to the next highest unit (the Manual, chapter 17, § 10).

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                            5
For example, one provider billed Medicare for the lipid formulation of doxorubicin
hydrochloride (HCPCS code J9001) rather than the nonlipid formulation of doxorubicin
hydrochloride (HCPCS code J9000), the drug actually administered. During the dates of service
that the provider administered this drug, Medicare packaged the nonlipid formulation in the
payment for related chemotherapy and did not provide for separate reimbursement under the
OPPS. On 29 separate occasions, this error occurred; as a result, the Medicare contractors paid
the providers $106,232 when they should have paid $0, an overpayment of $106,232.

In total, the Medicare contractors paid five providers $344,649 for packaged drugs when they
should have paid $0, an overpayment of $344,649.

Lack of Supporting Documentation

Seventeen providers billed Medicare on 34 line items for which the providers did not provide
any documentation to support that a patient had received the amount of the drug service billed.
The providers agreed to cancel the claims associated with these line items or file adjusted claims
and refund the combined $195,753 in overpayments that they received.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service and incorrect HCPCS codes on
81 line items. These errors resulted in overpayments of $181,060. For example, 11 providers
billed Medicare on 74 line items for 2 to 10 units of service for leuprolide acetate injections
(HCPCS code J1950, 3.75 milligrams per unit), which is indicated for the treatment of
endometriosis, uterine leiomyoma, and malignant neoplasms of the breast. However, the
providers should have billed Medicare for 1 to 4 units of service for leuprolide acetate injections
(HCPCS code J9217, 7.5 milligrams per unit), which is indicated for the treatment of prostate
cancer and was the dose actually administered. As a result of these errors, the Medicare
contractors paid the providers $181,629 when they should have paid $37,124, an overpayment of
$144,505.

In total, the Medicare contractors paid 16 providers $221,496 when they should have paid
$40,436, an overpayment of $181,060.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes on three line items, resulting in overpayments of
$10,629. For example, one provider billed Medicare on 2 line items for 300 units of epoetin alfa,
injection (HCPCS code J0885). However, the provider should have billed for 300 units of
darbepoetin alfa injection (HCPCS code J0881), the drug actually administered. As a result of
these errors, the Medicare contractors paid the provider $4,704 when they should have paid
$1,522, an overpayment of $3,182.

In total, the Medicare contractors paid two providers $12,311 when they should have paid
$1,682, an overpayment of $10,629.



Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)            6
UNDERPAYMENT TO A PROVIDER THAT BILLED INCORRECTLY

One provider billed Medicare on one line item for an outpatient drug service that included
incorrect units of service, resulting in an underpayment of $636. The provider has submitted an
adjusted claim.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect billings to clerical errors and to provider billing systems
that could not prevent or detect the incorrect billing of outpatient drug services. These billing
systems errors included chargemaster 12 errors and other system errors.

The Medicare contractor overpaid these providers because neither the CWF nor the FISS had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
providers to notify the Medicare contractors of incorrect payments and on beneficiaries to review
their Medicare Summary Notice and disclose any overpayments. 13

Other required edits in the CWF and FISS did not detect the errors that we found because the
edits suspended only those payments that exceeded a payment amount threshold but did not flag
payments that exceeded maximum billing units. Medically unlikely edits, which deny line items
for excessive units of service billed, do not exist for all HCPCS codes.

                                          RECOMMENDATIONS

We recommend that CGS:

     •   recover the $5,094,006 in identified overpayments,

     •   verify the payment of $636 in the identified underpayment, and

     •   use the results of this audit in its ongoing provider education activities.

                                            CGS’s COMMENTS

In written comments on our draft report, CGS concurred with all of our recommendations and
provided information on actions that it had taken or planned to take to address our
recommendations. CGS’s comments are included in their entirety as Appendix D.




12
  A provider’s chargemaster is an automatic data processing system that providers use as part of their billing
systems. The chargemaster contains data on every chargeable item or procedure that the provider offers, including
(1) a factor that converts a drug’s dosage to the number of units to bill and (2) whether to charge for waste.
13
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                                7
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                           JURISDICTION 15

                                                                        Report              Date
                         Report Title
                                                                        Number             Issued

Medicare Contractors’ Payments in Jurisdiction 15 to                A-05-12-00017        12/21/2012
Providers for Full Vials of Herceptin Were Often
Incorrect

Ashtabula County Medical Center Incorrectly Billed                  A-03-12-00010         8/3/2012
Medicare for Leuprolide Acetate Implants

The Medicare Contractor’s Payments in Jurisdictions 6,              A-05-10-00091        7/10/2012
8, and 15 to Providers for Full Vials of Herceptin Were
Often Incorrect

Review of Medicare Payments Exceeding Charges for                   A-05-10-00016        10/20/2011
Outpatient Services Processed by National Government
Services in Jurisdiction 15 for the Period January 1,
2006, Through June 30, 2009

Review of High-Dollar Payments for Medicare Part B                  A-05-08-00029        10/10/2008
Claims Processed by National Government Services for
Indiana and Kentucky Providers for the Period
January 1, 2004, Through December 31, 2006

Review of High Dollar Payments for Inpatient Services               A-05-08-00027         9/3/2008
Processed by National Government Services in Illinois,
Indiana, Kentucky, and Ohio for Calendar Years 2004
Through 2006 – Hospitals with Less Than 10 High
Dollar Payments




Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                8
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractors for
Jurisdiction 15 paid providers $773.6 million for 1.7 million line items for selected outpatient
drugs. We reviewed 947 line items, totaling $11.6 million, that the Medicare contractors paid to
104 providers. 14 We did not review entire claims; rather, we reviewed specific line items within
the claims. These line items included selected outpatient drugs with payment status indicator
code “G” or “K.” “G” identifies drugs and biologicals paid using the OPPS that include a pass-
through payment. 15 “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals,
brachytherapy sources of radiation, blood, and blood products paid using the OPPS without a
pass-through payment.

We did not review the overall internal control structure of the Medicare contractors or the
providers because our objective did not require us to do so. Rather, we limited our review to
(1) the Medicare contractors’ internal controls to prevent the overpayment of Medicare claims
associated with the selected outpatient drugs and (2) providers’ internal controls to prevent
incorrect billing for outpatient drugs. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

We conducted our audit from October 2012 through August 2013 and performed fieldwork by
contacting CGS in Nashville, Tennessee, and 104 providers that received the selected Medicare
payments during our audit period.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items for selected
         outpatient drugs (HCPCS codes with payment status indicator code “G” or “K”) for
         which Medicare payments were made during our audit period;

     •   used computer matching, data mining, and other analytical techniques to identify
         payments for outpatient drugs for which the number of units the provider billed was more
         than the number of units the provider would reasonably administer to a patient on a single


14
  The audit included a small number of line items for services provided before July 1, 2009, that were paid during
our audit period and a small number of line items for services provided before June 30, 2012, that were paid after
that date.
15
 Pass-through payments are additional payments made for a short time to cover the cost for certain innovative
medical devices, drugs, and biologicals that exceed Medicare’s OPPS payment amount.

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                               9
        date of service because these line items were at risk for noncompliance with Medicare
        billing requirements;

    •   selected 947 line items at risk of error, totaling $11,599,097, that the Medicare
        contractors paid to 104 providers;

    •   requested that 104 providers furnish documentation to support the services billed,
        including:

            o the physician’s order supporting the outpatient drug and amount ordered,

            o the drug administration record supporting that the outpatient drug was
              administered in the amount ordered, and

            o relevant financial or administrative notes related to the Medicare claim;

    •   reviewed the documentation provided to determine whether:

            o the billed information for the selected line items was correct and, if not, why the
              line item was incorrect,

            o the providers identified and adjusted the claim items before our review, and

            o the claimed units of the outpatient drug were based on dosing instructions
              provided with the packaging and any limitation on use (such as single-use or
              multiuse);

    •   calculated overpayment amounts, including adjustments to the claim due to changes in
        the allocation of the coinsurance amounts, in accordance with Federal requirements and
        Medicare payment procedures or used the amount determined by the Medicare
        contractor; and

    •   discussed the results of our review with providers and CGS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)              10
        APPENDIX C: FEDERAL REQUIREMENTS RELATED TO MEDICARE
        CONTRACTOR PAYMENT AND PROVIDER BILLING FOR SELECTED
                          OUTPATIENT DRUGS

FEDERAL LAW AND REGULATIONS

The Act, section 1833(e), states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

Further, the Act, sections 1861(s)(2) and 1861(t), define the terms “medical and other health
services” and “drugs and biologicals,” respectively. These sections identify those drug and
biological services that are covered services under the Medicare Part B program and also identify
any noncovered or excluded drug and biological services.

Federal regulations provide the methodology that Medicare uses to calculate payment for drugs
and biologicals, including the calculation of the coinsurance payment, which is limited to the
inpatient deductible amount for each year (42 CFR § 419.41).

CENTERS FOR MEDICARE & MEDICAID SERVICES GUIDANCE

CMS Pub. No. 100-06, Medicare Financial Management Manual, chapter 7, section 10, states:
“[CMS] contractors shall administer the Medicare program efficiently and economically to
achieve the program objectives.” Further, the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) “establishes internal control requirements that shall be met by CMS. For CMS to meet
the requirements of FMFIA, CMS contractors shall demonstrate that they comply with the
FMFIA guidelines.” Consequently, “the contractor shall establish and maintain efficient and
effective internal controls to perform the requirements of the contract….”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

The Manual, chapter 23, section 20.3, states: “providers must use HCPCS codes … for most
outpatient services.”

The Manual, chapter 4, section 20.4, states: “The definition of service units … is the number of
times the service or procedure [HCPCS code] being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for these products [outpatient drugs] make certain that the reported units of service of the
reported HCPCS code are consistent with the quantity of a drug, biological, or
radiopharmaceutical that was used in the care of the patient.”

The Manual, chapter 17, section 10, states: “If the drug dose used in the care of a patient is not a
multiple of the HCPCS code dosage descriptor, the provider rounds to the next highest unit based
on the HCPCS long descriptor for the code in order to report the dose provided.”


Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)             11
The Manual, chapter 17, section 70, states that, if the provider is billing for an outpatient drug in
which an “HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 [milligrams], and
200 [milligrams] are provided, units are shown as 4 ….”

The Manual, chapter 17, section 40, states:

        When a physician, hospital or other provider or supplier must discard the
        remainder of a single use vial or other single use package after administering a
        dose/quantity of the drug or biological to a Medicare patient, the program
        provides payment for the amount of drug or biological discarded as well as the
        dose administered, up to the amount of the drug or biological as indicated on the
        vial or package label.

The section further notes: “Multi-use vials are not subject to payment for discarded amounts of
drug or biological.”

The Manual, chapter 1, section 140.1, states that Medicare contractors must “edit for outpatient
and inpatient Part B claims that meet or exceed a reimbursement amount of $50,000.” The
section further notes that Medicare contractors must “suspend those claims receiving the
threshold edit for development and contact providers to resolve billing errors.” If the Medicare
contractor determines that the reimbursement is excessive and corrections are required, the claim
must be returned to the provider. If the billing is accurate and the reimbursement is not
excessive, the Medicare contractors will override the edit and process the claim for payment.

CMS Pub. No. 100-02, Medicare Benefit Policy Manual (chapter 15, section 50.4.2), states:

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis.




Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)             12
                                        APPENDIX D: CGS's COMMENTS


                           John Kimba ll
                           Vice President, Operations
                           CGS Administrators, LLC
                                                                                                                              0
                                                                                                                             CGS
                                                                                                                      A CELERIAN GROUP COMPANY

                                                                                                                       Two Vantage Way
                                                                                                                       Nashville, TN 37228
                                                                                                                       Tel: 615.782.4678
                           February 12,20 14                                                                           john.kimbal l@cgsadm in.com




                           Sheri L. Fulcher
                           Regional Inspector General for Audit Services
                           Office of Audit Services, Region V
                           233 North Michigan Avenue, Suite 1360
                           Chicago, IL 6060 l

                           RE: COS Response to Final OlG Report entitled Medicare Contractors for Jurisdiction 15
                           Overpaid Providers/or Selected Outpatient Drugs (A -05-13-00013)

                           Dear Ms. Sheri Fulcher,

                           COS Administrators, LLC, the Part NB and Home Health and Hospice Medicare
                           Administrative Contractor for Jurisdiction 15, appreciates the opportunity to comment on the
                           Office of Inspector General's draft report entitled Medicare Contractors for Jurisdiction 15
                           Overpaid Providers for Selected Outpatient Drugs (A-05-13-00013). In addition to requesting
                           comments on the report, you ask that COS state concurrence or nonconcurrence with each of the
                           three recommendations in the report.

                           The OlG makes three (3) recommendations in its report. Those recommendations are:
                              l. Recover the $5,094,006 in identified overpayments.
                              2. Verify the payment of$636 in the identified underpayment.
                              3. Use the results ofthis audit in its ongoing provider education activities.

                           COS concurs with the three recommendations in the report. For Recommendation l, COS has
                           adjusted or has had the provider adjust the claims identified as overpayments. For
                           Recommendation 2, COS verified th at the payment has been issued to the provider for the
                           identified underpayment. Finally, for Recommendation 3, COS will continue to use the
                           information from the aud it in its supplier educational acti vities.

                           As noted in the report, most of these claims were processed by the incumbent contractor
                           National Government Services, Inc. (NOS). Analysis of the adjustment fi le indicates that only
                           33 of the 631 claims that were overpaid (5.2%) were processed by COS . The remain ing 94.8%
                           of overpaid claims were processed by NOS.
                           COS mo nitors errors documented by the Comprehensive Error Rate Testing (CERT) Contractor,
                           the Recovery Audit Contractor (RAC) , the Office of the Inspector General (OIG) and the Zone
                           Program Integrity Contractors (ZPTC). COS also uses comparative reports such as the First-look




                           Copyright 0 2014, CGS Admin istrator., LLC
                           C GS Adm inistmtors, LLC is a Medicare Part A, B, Home Health and llospice, and
                           DME Medicare Administrative Contractor for the Centers for Med icare & Medicaid Services




Medicare Overpayments in J urisdic tio n 15 for Selected Outpatient D rugs (A -05-13-00013)                                             13
                        COS Response to 010 Report A-05-13-00013
                        Page 2



                        Analysis Too l for Hospital Outlier Monitoring (FATHOM) and internal data including
                        prioritization reports, dollars at risk, feedback from POE, bill type utilization reports and
                        comparative billing reports to assist in identifying areas of risk and vulnerability. This analysis
                        is used to develop a Medical Review Strategy (MRS) that is designed to address improper
                        payments in the Medicare fee-for-service (FFS) program. Outpatient Services, which includes
                        Drugs, is Problem 3 on the Jl5 Option Year 3 (OY3) Part A MRS ; Other Drugs is Problem 5 on
                        the J 15 OY3 l>art B MRS.
                        Utilizing the above noted sources we implemented multiple interventions in our medical review
                        strategy, including the creation and refinement of Local Coverage Determinations (LCDs).
                        CGS has two active LCDs that include the majority of codes listed on the reports. In addition
                        procedure-to-diagnos is editing is established based on these LCDs.
                        The LCDs and drugs included in those LCDs are as follows:
                             •    LCD L3l836 - Chemotherapy and Biologicals
                                    o J9355- Herceptin
                                    o J93 I 0 - Rituximab
                                    o J9000/J900 I/J9002 -Doxorubicin
                                    o J921 7/J1950- Leuprolide Acetate
                             •    LCD L31867 - Erythropoiesis Stimulating Agents (ESAs)
                                    o J0881 Darbepoetin A lpha / J0885 Epoetin Alpha
                        Additionally, CMS released Medically Unlikely Edits (MUEs) associated with these codes that
                        established maximum . . . . . . . . .. . 





                        In addition to the MUEs, the CGS Contractor Medical Director (CMD) is creating a list or
                        Clinically Unbelievable Edits (CUEs). Similar to MUEs, CUEs are used by Medicare
                        Contractors to reduce the paid c laim error rate. Claims for supplies/services that exceed
                        cl inically unbelievable parameters are automatically denied as not reasonable and necessary.
                        Unlike MUE values, all CUE values are kept confidentiaL



                        Copyright ,t .HOI4, CGS AdminiSlt8too;, llC
                        CGS Administrators, LLC is a Medicare l'art A, B, Home Health and Hospice, and
                        llMii Medicare Administrative Contractor lor the Centers for Medicare & Medicaid Services




              Office of Inspector General Note-The deleted text has been redacted
              to protect proprietary information.

MedicCO'e Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A-05-13-00013)                                       14
                         CGS Res ponse to O IG Report A-05-1 3-000 13
                          Page 3



                          CGS MR a lso cond ucted multi ple probes after the J 15 trans iti on to re view cl aims for abe rrant
                          use o f Herceptin, lnfliximab, and Ritux imab.




                          Errors consist mostl y of proble ms re lated to orders and failure to provi de medical records.
                          There have been significant reversal s d ue to pro viders s ubmitting s igned o rders upon appeal.

                          CGS Provider Outreach and Ed ucation (POE) has used MR res ults, OIG fi nd ings, and CMS
                          gu idance to provide ongo ing education to providers and facilities. Web arti cles and monthl y
                          bulletins pertaining to Medi ca l Review fi ndings and CMS guidance o n medi cations and
                          appro priate dosing are posted frequently to a lert and educate the prov ider community.
                          Represe ntative samples of these articl es are noted belo w:
                             https://www.cgsmedicare.com/k yb/ pubs/ mb J 15/2013/03 20 13/ PDFs/OH 2013 03.pdf
                             http://www.cgs medicare.com/parta/pubs/ news/20 13/ I 0 13/COPE23550H.htm l
                             http://www.cgsmedicare.com/ohb/pubs/ mb J 15/20 12/07 20 12/ index.html
                             https ://www.cgsmed icare.com/parta/pubs/news/20 13/081 3/cope22853 .html
                             https://www.cgsmedicare.com/ohb/ pubs/news/20 13/0 11 3/cope21 0 12. html
                             http://www.cgsmedicare.com/parta/pubs/news/20 12/ 1112/73 0.html

                         CGS has taken appropriate measures regarding reviews an d edits as o ur strategy and fund ing
                         allow




                         Copyright 0 2014, COS Administrators, LLC
                         COS Administrat-ors. LLC is a Medicare Part A, 13. Ho me Health and Hos pice, and
                         DM E Medicare Adm inistrative Commctor for the Cen ters for Med icare & Medicaid Services




               Office oflnspector General Note- The deleted text has been redacted
               to protect proprietary information.

Medicare Overp ayments in Jurisdiction 15 f or Selected Outpatient D rugs (A -05-1 3-00013)                                       15
                        CGS Response to OIG R eport A-05-13-000 13 

                        Page 4 




                       • • • • • • • • • • • • • • • • • • • • • • • • • • • • •I CGS usesour
                       MRS to identify and prioritize potential aberrancies and implement interven tions to avoid
                       overpayments within the scope of our contracts, authorization, and experience.

                        In summary, CGS Adm inistrators, LLC is full y aware of the vulnerabilities o utlined in draft
                        report A-05-13-000 13and, as demonstrated above, has taken aggressive and extensive steps to
                        add ress those v ulnerabilities. Should you have any additional q uestions, please feel to contact
                        Larry Kennedy at 6 15.782.4607 or Larry.Kennedy@cgsadmin. com.


                        Sincerely,



                       fi:m~
                        Vice President, Operations




                        Copyright <020 14, COS Administrators, LLC
                        COS Admi nistrators, LLC is a Medicare Part A, B. Ho me Health and Hospice, ru1d
                        DME Med icare Ad ministrative Contractor for the Centers for Medicare & Medicaid Services




        Office oflnspector General Note - The deleted text has been redacted
        to protect proprietary information.

Medicare Overpayments in Jurisdiction 15 for Selected Outpatient Drugs (A -05-13-00013)                                      16
